<html>
<title> - LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 373, A BILL TO AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES; S. 1519, NUTRIA ERADICATION AND CONTROL ACT OF 2009; S. 1421, ASIAN CARP PREVENTION AND CONTROL ACT; S. 1965, FERAL SWINE ERADICATION AND CONTROL PILOT PROGRAM ACT OF 2009; H.R. 2188, JOINT VENTURES IN BIRD HABITAT CONSERVATION ACT OF 2009; S. 1214, NATIONAL FISH HABITAT CONSERVATION ACT; H.R. 3537, JUNIOR DUCK STAMP CONSERVATION AND DESIGN PROGRAM REAUTHORIZATION ACT OF 2009; H.R. 3433, TO AMEND THE NORTH AMERICAN WETLANDS CONSERVATION ACT; AND H.R. 509, MARINE TURTLE CONSERVATION REAUTHORIZATION ACT OF 2009</title>
<body><pre>[Senate Hearing 111-1219]
[From the U.S. Government Publishing Office]








                                                       S. Hrg. 111-1219

LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 373, A BILL TO 
 AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES; S. 
 1519, NUTRIA ERADICATION AND CONTROL ACT OF 2009; S. 1421, ASIAN CARP 
   PREVENTION AND CONTROL ACT; S. 1965, FERAL SWINE ERADICATION AND 
 CONTROL PILOT PROGRAM ACT OF 2009; H.R. 2188, JOINT VENTURES IN BIRD 
   HABITAT CONSERVATION ACT OF 2009; S. 1214, NATIONAL FISH HABITAT 
CONSERVATION ACT; H.R. 3537, JUNIOR DUCK STAMP CONSERVATION AND DESIGN 
  PROGRAM REAUTHORIZATION ACT OF 2009; H.R. 3433, TO AMEND THE NORTH 
    AMERICAN WETLANDS CONSERVATION ACT; AND H.R. 509, MARINE TURTLE 
                CONSERVATION REAUTHORIZATION ACT OF 2009

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-185 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 3, 2009
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     3
Levin, Hon. Carl, U.S. Senator from the State of Michigan........     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    88
Nelson, Hon. Bill, U.S. Senator from the State of Florida, 
  prepared statement.............................................    89

                               WITNESSES

Ashe, Dan, Deputy Director, U.S. Fish and Wildlife Service.......     7
    Prepared statement...........................................    10
    Responses to additional questions from Senator Inhofe........    22
Mouton, Edmond C., Jr., Biologist Program Manager, Coastal and 
  Nongame Resources, Louisiana Department of Wildlife and 
  Fisheries......................................................    29
    Prepared statement...........................................    31
    Responses to additional questions from Senator Vitter........    38
Schwaab, Eric C., Deputy Secretary, Maryland Department of 
  Natural Resources, on behalf of the Association of Fish and 
  Wildlife Agencies..............................................    41
    Prepared statement...........................................    43
    Responses to additional questions from Senator Inhofe........    57
Bendick, Robert L., Director, U.S. Government Relations, The 
  Nature Conservancy.............................................    65
    Prepared statement...........................................    67
    Responses to additional questions from Senator Inhofe........    75
Robertson, Gordon, Vice President, American Sportfishing 
  Association....................................................    79
    Prepared statement...........................................    81
    Responses to additional questions from Senator Inhofe........    84

                          ADDITIONAL MATERIAL

Congressional statements.........................................
    U.S. Senator Joseph I. Lieberman.............................   106
    U.S. Representative Solomon P. Ortiz.........................   107
    U.S. Representative Robert J. Wittman........................   108
Articles.........................................................
    Anchorage Daily News, August 1, 2008, Nine teens help restore 
      habitat....................................................   111
    Cumberland Times-News, June 5, 2008, $1.2 million project 
      could breathe life into Aaron Run..........................   113
    ESPN.com, September 4, 2009, National Fish Habitat 
      Conservation Act...........................................   115
    HamptonRoads.com, retrieved July 27, 2009, Marsh plants get 
      room to grow on Roanoke Sound..............................   117
    The Orlando Sentinel, November 27, 2009, Slithering toward 
      crises.....................................................   119
    The Palm Beach Post, December 2, 2009, Keep snakes off the 
      planes.....................................................   121
    Pennsylvania Outdoor News.com................................   122
    Post-Gazette Now, October 19, 2008, Fishing: Bringing 
      brookies back to one of America's `10 Waters to Watch'.....   124
    The Post-Searchlight.com, May 29, 2009, Striped bass habitat 
      in Flint to be restored....................................   127
    SmallTownPapers News Service, May 6, 2008, Trout Run is 
      `Water to Watch'...........................................   129
    tampabay.com, December 30, 2008, Fortifying the shore: 
      MacDill calls in oyster reinforcements.....................   131
    The Nature Conservancy, April 2009, The National Fish Habitat 
      Action Plan: A Partnership Approach to Protect and Restore 
      Fish Populations...........................................   136
    TNV Outdoors, July 8, 2009, SADLER: Protecting habitats a 
      priority...................................................   139
    The Tribune-Democrat, May 19, 2009, River cleanup projects 
      benefit all in region......................................   142
    The Tribune-Democrat, August 15, 2009, DEP project may 
      restore trout to Little Conemaugh..........................   144
    Valley Citizen, May 6, 2009, Teton Creek restoration set as a 
      priority...................................................   145
Letters..........................................................
    From the American Bird Conservancy to Senator Cardin, 
      September 22, 2009.........................................   146
    From the American Welfare Institute et al. to Senator Cardin 
      and Senator Crapo, December 3, 2009........................   148
    From the Bird Conservation Alliance to Senator Cardin, 
      October 2, 2009............................................   150
    From Russell R. Burton, DVM, Ph.D., to Senator Cardin and 
      Senator Crapo, December 1, 2009............................   154
    From the California Riparian Habitat Joint Venture to Senator 
      Cardin, October 29, 2009...................................   157
    From the Conservation Fund to Senator Cardin, September 4, 
      2009.......................................................   159
    From Elliott Jacobson, MS, DVM, Ph.D., Dipl. ACZM, et al. to 
      Senators Boxer, Inhofe, Cardin, and Crapo, November 24, 
      2009.......................................................   160
    From the National Audubon Society to Senator Cardin, 
      September 23, 2009.........................................   163
    From San Francisco Bay Joint Venture to Senator Cardin, 
      November 5, 2009...........................................   164
    From the Wildlife Society to Senator Cardin, December 3, 2009   166
    List of organizations providing letters of support for H.R. 
      2188.......................................................   168
Testimony from the National Pet Association, December 3, 2009....   169
Report from the U.S. Geological Survey--Giant Constrictors: 
  Biological and Management Profiles and an Establishment Risk 
  Assessment for Nine Large Species of Pythons, Anacondas, and 
  the Boa Constrictor............................................   176
Report to the Aquatic Nuisance Species Task Force, October 21, 
  1996, Generic Nonindigenous Aquatic Organisms Risk Analysis 
  Review Process.................................................   186
 
LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 373, A BILL TO 
 AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES; S. 
 1519, NUTRIA ERADICATION AND CONTROL ACT OF 2009; S. 1421, ASIAN CARP 
   PREVENTION AND CONTROL ACT; S. 1965, FERAL SWINE ERADICATION AND 
 CONTROL PILOT PROGRAM ACT OF 2009; H.R. 2188, JOINT VENTURES IN BIRD 
   HABITAT CONSERVATION ACT OF 2009; S. 1214, NATIONAL FISH HABITAT 
CONSERVATION ACT; H.R. 3537, JUNIOR DUCK STAMP CONSERVATION AND DESIGN 
  PROGRAM REAUTHORIZATION ACT OF 2009; H.R. 3433, TO AMEND THE NORTH 
    AMERICAN WETLANDS CONSERVATION ACT; AND H.R. 509, MARINE TURTLE 
                CONSERVATION REAUTHORIZATION ACT OF 2009

                              ----------                              


                       THURSDAY, DECEMBER 3, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
406, Dirksen Senate Office Building, Hon. Benjamin L. Cardin 
(chairman of the subcommittee) presiding.
    Present: Senators Cardin and Bond.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, good afternoon everyone. I am pleased 
to convene the Subcommittee on Fish and Wildlife of the 
Environment and Public Works Committee.
    Let me just point out the challenge we are going to have 
here. There are scheduled votes at quarter of three, so we are 
going to try to get as much of the hearing done as possible by 
that time. We will see how far we can get, and we will see 
whether we need to take a recess, or how we will complete the 
hearing.
    I have talked to Senator Crapo's staff, and the two of us 
are going to defer our comments to later in the hearing.
    And with that, I would recognize Senator Bond.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    I want to welcome my colleagues and our witnesses to 
today's important legislative hearing that will look at nine 
critical wildlife bills that have been referred to this 
committee.
    Habitat loss and invasive species are two of the largest 
threats to biodiversity in the United States. We lose an 
estimated 6,000 acres of open space each day in this country, a 
problem for wildlife habitat that is only compounded by other 
sources of stress like climate change and invasive species.
    We have a responsibility to preserve wildlife and their 
habitat as part of being good stewards of the earth. But we 
have an economic responsibility as well that gains more 
importance in these difficult times.
    According to the 2006 National Survey of Fishing, Hunting, 
and Wildlife-Associated Recreation, 87.5 million U.S. residents 
fished, hunted, or watched wildlife in 2006. They spent over 
$122 billion pursuing their recreational activities, 
contributing to millions of jobs in industries and businesses 
that support wildlife-related recreation.
    Today we will look at two very important habitat 
conservation bills, H.R. 2188, Joint Ventures in Bird Habitat 
Conservation Act of 2009 that was introduced in the House of 
Representatives by my friend from Maryland, Congressman Frank 
Kratovil, and S. 1214, the National Fish Habitat Conservation 
Act introduced by Senator Lieberman.
    We will look today at three pieces of legislation that are 
intended to address threats to our wetlands:
     S. 1519, the Nutria Eradication and Control Act of 2009,
     S. 1965, the Feral Swine Eradication and Control Pilot 
Program Act of 2009, and
     H.R. 3433, a bill that would amend the North American 
Wetlands Conservation Act to make its funding mechanism more 
flexible.
    We know that our wetlands are important natural resources 
that provide numerous values to society, including fish and 
wildlife habitat, flood protection, erosion control and water 
quality preservation. Maryland provides a good case in point 
for how our Nation's wetlands are threatened by invasive 
species and habitat loss.
    For nearly six decades at the Blackwater National Wildlife 
Refuge in Maryland, nutria have been killing wetland grasses 
that provide vital habitat for native shorebirds, muskrats and 
blue crabs not to mention the role these grasses play in 
maintaining water quality.
    Nutria are responsible for the loss of more than 5,000 
acres of wetlands in Blackwater refuge alone. The loss of these 
wetlands, which are vital to the fishery, was estimated to cost 
Maryland's economy nearly $4 million annually.
    In 2000, Congress established a Federal funding source to 
develop a successful public-private partnership program to 
address nutria in Maryland. Healthy wetlands are returning to 
places where nutria have been removed both in Maryland and in 
Louisiana. But the job is not yet done.
    That is why I have introduced the Nutria Eradication and 
Control Act of 2009 that would continue and improve the 
successful nutria eradication program in Maryland and Louisiana 
and expand it to other impacted States including Oregon and 
Washington.
    Senator Landrieu has introduced S. 1965 to implement a 
pilot program to control feral swine which are reversing the 
progress made in Louisiana's wetlands as a result of nutria 
eradication.
    We will also look today at two bills to control the import 
of deadly constrictor snakes and Asian carp into the United 
States. We heard dramatic testimony from Senator Nelson in 
front of this subcommittee this past July on the number of 
invasive constrictor snakes in Florida and the dangers these 
snakes pose to humans and to the environment.
    I am especially interested in acting on this issue. USGS 
projections show that, with climate change, the eastern shore 
of Maryland could become a suitable home to these deadly 
snakes. Meanwhile, Asian carp are becoming an ever increasing 
threat to biodiversity in the Great Lakes.
    We will consider H.R. 509, the Marine Turtle Conservation 
Reauthorization Act of 2009 which reauthorizes this critical 
program.
    Last we will look at H.R. 3537, Junior Duck Stamp 
Conservation and Design Program Reauthorization Act of 2009. 
This bill would reauthorize the oldest youth focused 
conservation program run by the Federal Government.
    I ask unanimous consent that statements from the sponsors 
of the bills that we will consider here today be entered into 
the record.
    I want to thank our Agency and expert witnesses for coming 
before this subcommittee. Our panelists have been on the front 
lines of preserving our wildlife habitat and conserving our 
native species.
    You are the ones doing the research and implementing 
programs on the ground to address these problems. You know what 
works and what does not work when it comes to stopping the loss 
of habitat and the spread of invasive species. I look forward 
to hearing your views on the bills we are examining here today.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Chairman Cardin. A real 
pleasure to be with you. There is no better committee. As an 
outdoorsman, I enjoy the hunting and fishing subcommittee. You 
throw in a little clean water so you can drink a little with 
the hunting and fishing, and it is as good as it gets.
    But I thank you and Senator Crapo for holding this hearing 
of the hunting and fishing subcommittee. Whether you like to 
fish, as I do, or you are just interested in preserving the 
beauty of our aquatic treasures, S. 1214, the National Fish 
Habitat Conservation Act is something that you ought to 
support, as we strongly support it.
    I am proud to cosponsor this bill with Senator Lieberman as 
well as Senators Crapo, Cardin, Murkowski, Casey, Whitehouse, 
Klobuchar and others. We ought to be able to get that out of 
committee.
    Senator Cardin. Sounds as if you are off to a good start.
    Senator Bond. Yes, we are moving along. I think this is an 
example of how Senators can come together and legislate in a 
bipartisan fashion, and I am thankful for the full committee 
Chair and Ranking Member agreeing to put this bill on the 
agenda.
    The National Fish Habitat Conservation Act has its roots in 
a bill I have been proud to support for years, the Fishable 
Waters Act. The basic premise of the two bills is the same: 
provide support to local efforts to protect fish habitat based 
upon the recommendation of all stakeholders involved in the 
problem and the solution. This includes not only traditional 
government, environmental and conservation interests, but also 
fishermen and anglers, farmers, foresters, developers, even 
miners. They all play a role in the problems facing fish 
habitat, and therefore all need to have a role in providing 
solutions to protect fish habitat.
    Only when everyone is sitting at the table can we come up 
with local, fair, balanced and lasting solutions to achieve our 
environmental goals. This bill may be modest. Its authorization 
level is only $75 million per year, but I hope this bill and 
efforts it inspires can provide a model for coming together 
from the ground up to solve our problems.
    There are concerns about provisions in the bill giving 
authority to the Secretary of the Interior to acquire water 
rights as part of a project to protect fish habitat. Of course, 
we should always be careful when we are giving power like that 
to the Federal Government. I hope the way this program is 
structured, including agricultural, development and commercial 
interests in the decisionmaking process, it will help to 
alleviate some of those concerns. I do support working on any 
adjustment that might help ease these concerns.
    Now, I am very thankful for including this legislation 
today. I am delighted to see representatives of the American 
Sport Fishing Association here today. I appreciate the 
contributions they make. I talk about it and think about it a 
lot, but I just wish I had more time to do sport fishing.
    I also know that many groups and individuals from the 
conservation community put a great deal of work into the 
legislation. I thank them, as well. Without your hard work, we 
would not be here today.
    And I thank all the Government officials from different 
agencies for cooperating on hammering out a process that will 
work. There can be only one chief in the tribe, but the 
contributions of many agencies will be vital to this effort. I 
thank all of the groups for working together.
    And I would say, Mr. Chairman, that we have embarked on a 
number of these projects in Missouri where we have worked with 
the EPA, the State Department of Natural Resources, the 
landowners, the University of Missouri. They have developed 
agricultural methods to lessen significantly the amount of 
pollution running off from farms. We still have pollution 
running off from development areas where there are roads and 
shopping centers. But all of these things can best be dealt 
with when you get all of the affected parties working together.
    I am very proud of and would be happy to take any of my 
colleagues or others who are interested to see what we have 
been able to do to improve the fishing. I am going to be 
leaving here in 2011, and I want to make sure that fishing is 
good in Missouri when I get finished.
    Thank you very much, and we look forward to seeing this 
bill pass.
    [The prepared statement of Senator Bond follows:]

                Statement of Hon. Christopher S. Bond, 
                U.S. Senator from the State of Missouri

    Thank you, Senators Cardin and Crapo, for holding this 
hearing in what I affectionately like to refer to as the 
Hunting and Fishing Subcommittee.
    Whether you like to fish, as I love to do, or you are just 
interested in preserving the beauty of our aquatic treasures, 
S. 1214, the National Fish Habitat Conservation Act is for you.
    I am proud to cosponsor this bill with Senator Lieberman, 
as well as Senators Crapo, Cardin, Murkowski, Casey, 
Whitehouse, Klobuchar and others.
    This is an example of how Senators can come together and 
legislate in a bipartisan fashion. I am thankful that the 
Chairman and Ranking Member agreed to put this bill on the 
agenda.
    The National Fish Habitat Conservation Act has its roots in 
a bill I have been proud to support for years, the Fishable 
Waters Act. The basic premise of the two bills is the same: 
provide support to local efforts to protect fish habitat based 
upon the recommendation of all stakeholders involved in the 
problem and solution.
    This includes not only traditional government, 
environmental and conservation interests, but also fisherman 
and anglers, farmers, foresters, developers, even miners.
    They all play a role in the problems facing fish habitat, 
and therefore all need to have a role in providing solutions to 
protect fish habitat.
    Only when everyone is sitting at the table can we come up 
with local, fair, balanced and lasting solutions to achieve our 
environmental goals.
    This bill may be modest, its authorization level is only 
$75 million per year, but I hope this bill and efforts it 
inspires can provide a model of coming together, from the 
ground up, to solve our problems.
    There are concerns about provisions in this bill giving 
authority to the Secretary of the Interior to acquire water 
rights as part of a project to protect fish habitat. Of course, 
we should always be careful whenever giving power to the 
Federal Government.
    I hope the way that this program is structured, including 
agricultural, development and commercial interests in the 
decisionmaking process helps alleviate some of the concern.
    Additionally, the bill specifically preserves all existing 
private property rights.
    Furthermore, the bill specifically prohibits the purchase 
of land or water rights without the express, written consent of 
property owners.
    That said, I do support working on any adjustment that 
might help ease concerns in this regard.
    But for now, thank you again for including this legislation 
today.
    I see Gordon Robertson of the American Sportfishing 
Association is here today. I want to thank him for his 
contribution today and on the bill.
    I also know that many groups and individuals from the 
conservation community have put a great deal of work into this 
legislation, and I want to thank them as well. Without your 
hard work we would not be here today.
    Similarly, I want to thank the government officials from 
the different agencies for cooperating on hammering out a 
process that will work. There can only be one chief in the 
tribe, but the contributions of many agencies will be vital to 
this effort. I thank you for your work now and in the future.
    Thank you.

    Senator Cardin. Well, Senator Bond, I want to thank you for 
your leadership on this issue. S. 1214 is a critically 
important bill that will do much good in protecting our fish 
habitat. It is not only important for clean water and for 
environment. It is a critically important industry and brings 
in significant revenues to our communities. And it is part of 
the way of life here for many of us. I thank you for your 
strong leadership on this issue, and I am proud to be a co-
sponsor of that bill.
    We do have nine bills on the hearing this morning dealing 
with invasive species and conservation. There is a bill that 
has been introduced by my colleague in the House, Congressman 
Kratovil, H.R. 2188, dealing with bird habitat conservation, 
and a bill that I have introduced, S. 1519, dealing with nutria 
eradication.
    One of the bills on our list is S. 1421, the Asian Carp 
Prevention and Control Act.
    Senator Levin, it is a pleasure to have you before our 
committee.

             OPENING STATEMENT OF HON. CARL LEVIN, 
            U.S. SENATOR FROM THE STATE OF MICHIGAN

    Senator Levin. Thank you very much.
    Chairman Cardin, Senator Bond, thank you for holding this 
hearing. Thank you so much for all the great work you do. The 
area you described I know up close and personal being a 
Representative or Senator now from a Great Lakes State just how 
these invasive species can do massive damage to our environment 
and to our lakes.
    We, I think, are familiar with the Asian carp. There has 
been a huge effort made to try to control the Asian carp to 
make sure it does not get into the Great Lakes. Barriers have 
been built. Poisons have been installed. Descriptions of how 
much they can eat, 40 percent of their weight every day. There 
is a picture of one of the species here, the bighead, which as 
you can see is just about as big as the Fish and Wildlife 
officer that is holding it up.
    And there is an urgent problem here. The problem is that 
some people actually bring these carp in live into the United 
States. And if they are released into the lakes or into our 
streams, they then, of course, reproduce at warp speed. The 
older they get, the more they reproduce.
    Most of the varieties of the Asian carp have been banned in 
terms of the Lacey Act bringing them into the United States. 
This one particular variety, the bighead, has not been banned. 
And so we simply are asking the committee, subcommittee then 
committee in the Senate and Congress then to do is to make sure 
that the bighead variety of the Asian carp is prohibited, as 
the other varieties are.
    There is a report that has been issued now by the U.S. 
Geological Survey, a biological environmental risk assessment. 
The conclusion is that the risks associated with all components 
of the probability of establishment of the bighead carp are 
rated high. At the end of that quote, which I have in full in 
my printed or my prepared statement, it says that this 
classification of high risk, unacceptable risk justifies 
mitigation to control negative effects and means--and these are 
the key words--bighead carp are organisms of major concern for 
the United States.
    So I know we are trying to stop them from getting into the 
Great Lakes by building dispersal fences. We have poison 
programs, but the best way to stop them is prevent them from 
coming into the United States without a license. And the Lacey 
Act is there for this purpose. Our bill would amend the Lacey 
Act to include the bighead carp as a prohibited import in the 
United States without a special license.
    [The prepared statement of Senator Levin follows:]

                     Statement of Hon. Carl Levin, 
                U.S. Senator from the State of Michigan

    Thank you, Chairman Cardin and the members of your 
subcommittee, for holding today's hearing on a very important 
bill to reduce the threats to our wildlife from a species of 
Asian carp. It is a bipartisan bill co-sponsored by my co-
chair, Senator George Voinovich, and five other colleagues.
    As a Senator from a Great Lakes State, I have seen up close 
the consequences of allowing aquatic invasive species to enter 
our waters. About 180 non-native organisms have been identified 
already in the Great Lakes. While there are some particularly 
destructive invasive species, like the zebra and quagga 
mussels, that have already been established in the Great Lakes, 
the Asian carp would dramatically change the fishery make-up of 
the Great Lakes. The Asian carp grow very big, reproduce 
quickly, and are now the most abundant fish in parts of the 
Mississippi River. It's important to Michigan, the other Great 
Lakes States, and the Canadian provinces of Quebec and Ontario 
to prevent these fish from entering the Great Lakes and 
destroying the native fishery.
    Because invasive species can quickly spread throughout the 
country, the best chance that we have against invasive species 
is prevention. The Asian Carp Prevention and Control Act would 
include the bighead carp on the list of injurious species under 
the Lacey Act. Such a listing would prevent the importation and 
interstate commerce of live bighead carp without a permit. 
Limiting the movement of live bighead carp will lower the risk 
of an introduction of these fish into the Great Lakes which has 
a fishery valued at $5 billion-$7 billion annually.
    The Asian carp grow very big, reproduce quickly, and are 
now the most abundant fish in the Mississippi River. As USA 
Today described it, the bighead carp ``doesn't have a stomach, 
so it eats constantly. By vacuuming plankton, algae and 
everything else in its way, the fish can grow to more than 4 
feet and 85 pounds. The older and bigger it gets, the more it 
reproduces.'' The article also states that Asian carp ``can 
consume 40 percent of their body weight every day.'' The U.S. 
Fish and Wildlife has already listed other species of Asian 
carp (silver, large-scale silver, and black) under the Lacey 
Act but has so far failed to complete consideration of the 
bighead carp for inclusion despite the strong evidence of the 
harm that these fish will do. We believe that the failure to 
include bighead carp in the listing is clearly an 
administrative oversight, but we cannot wait any longer. The 
risk is too great. In 2005, the U.S. Geological Survey (USGS) 
provided a biological synopsis and environmental risk 
assessment to the Fish and Wildlife Survey about Asian carp. 
The USGS concluded:
    ``The risk associated with all components of the 
probability of establishment (organism within pathway, entry 
potential, colonization potential, and spread potential) was 
rated high for bighead carp. Therefore, the probability of 
establishment earned a high rating. Two components of the 
consequences of establishment were rated medium to high 
(economic and environmental impacts), and one was rated medium 
(perceived or social impacts), requiring that the consequence 
of establishment be rated as medium to high. The organism risk 
potential of bighead carp in the United States, therefore, 
which combines the probability of establishment and the 
consequences of establishment, was determined to be a high, or 
an unacceptable risk. This classification justifies mitigation 
to control negative effects and means that bighead carp are 
organisms of major concern for the United States.''
    So the impact that the bighead carp would have if it made 
it into the Great Lakes would be severe. The U.S. Army Corps of 
Engineers has spent $9 million on an electric dispersal barrier 
to keep Asian carp and other invasive species out of the Great 
Lakes. It would undermine that effort and expenditure of 
Federal resources if the bighead carp were to be introduced 
into the Great Lakes because the Government did not do 
everything that it could to block the pathways of introduction 
into the lakes. So I encourage this committee to support this 
bill, and I want to thank the members of the subcommittee for 
today's hearing.

    Senator Cardin. Well, Senator Levin, I thank you for 
bringing this bill to our attention. We are familiar with the 
damage being caused by this invasive species. The amount of 
food that it takes in every day is having a dramatic impact on 
the balance within the region.
    So it is an important issue. We thank you for bringing it 
to our attention, and we will try to give it quick review.
    Senator Levin. Well, we thank you very much, Mr. Chairman 
and Senator Bond. One request is that not just my statement, 
but that a letter from the Governor of the State of Michigan to 
the Attorney General of the State of Michigan be incorporated 
into the record, and also my thanks to the Fish and Wildlife 
Service for their support of this legislation.
    [The referenced letter was not received at time of print.]
    Senator Cardin. Thank you. Thank you, Senator Levin.
    Dan Ashe serves as the Deputy Director for Policy for the 
U.S. Fish and Wildlife Service. He has dedicated many years of 
work to ensuring that future generations will continue to enjoy 
the benefits of abundant and diverse wildlife that we enjoy 
today.
    Prior to his appointment as Deputy Director, Mr. Ashe 
served as the Science Adviser to the Director of Fish and 
Wildlife Service, leading the organization's renaissance for 
science and professionalism within the Service.
    Mr. Ashe, it is a pleasure to have you before the 
subcommittee.

STATEMENT OF DAN ASHE, DEPUTY DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Ashe. Thank you, Senator. And thanks for the 
opportunity to be here today. Most of all, thanks for your 
leadership on these important bills.
    I want to say we support all the bills that are the subject 
of today's hearing. With respect to S. 1214, we strongly 
support the legislation but would like the opportunity to work 
with the subcommittee to address some concerns that were 
expressed during the interagency review of our testimony. I 
would characterize them as minor and technical changes, and we 
look forward to working with the subcommittee on them.
    With respect to S. 373, the constrictor legislation, we 
would urge amendment of the bill to include all nine of the 
constrictor species we recommend based on their identified risk 
to wildlife and ecological systems in South Florida and 
potential risk beyond South Florida.
    I think the bills before you today represent a cross-
section of 21st century challenge and opportunity. We are 
working against great forces that are based principally in 
human ecology and economy. I think, Mr. Chairman, you know well 
the environmental and economic damage that is associated with 
invasive species like the nutria.
    As we work with partners to protect great natural resources 
like the Chesapeake Bay, we are dealing with the effects of 
human use on the land and water, habitat destruction and 
fragmentation, waste disposal, species invasion, and now the 
challenges associated with a changing climate system. The end 
result is that the ability of our natural landscapes to support 
diverse, abundant and healthy populations of fish and wildlife 
and plants is increasingly compromised.
    The bills you are considering today that address nutria, 
constrictor snakes, Asian carp and feral hogs are emblematic of 
the challenges that we face. Our efforts at nutria eradication 
illustrate that we can be successful with adequate science and 
resources and time. But our experience with constrictor snakes, 
Asian carp, feral hogs and myriad other invasive species tell 
us that better prevention is the only true salvation.
    The bills strengthening the North American Wetlands 
Conservation Act and the Marine Turtle Conservation Act and 
giving legislative authority to the Migratory Bird Joint 
Ventures and the National Fish Habitat Action Plan support very 
important directions of change in conservation. We can't deal 
with 21st century conservation challenges without significantly 
strengthened science, expanded resources and more enduring 
partnerships. These bills will help achieve this.
    The North American Wetlands Conservation Act is a model. 
Under this framework, we have worked with partners across the 
North American continent. We have established common 
objectives. We have built the science to understand the 
relationships between populations and factors like habitat, 
harvest, invasion, predation, and disease.
    We worked with Congress to acquire the resources to protect 
and restore nearly 26 million acres of wetlands and associated 
uplands. As a result of this, today's waterfowl populations are 
diverse, abundant, distributed, and healthy. Expanding this 
model is essential in helping us deal with 21st century 
conservation challenges. The Migratory Bird Joint Ventures and 
the National Fish Habitat partnerships represent this kind of 
expansion, and therefore H.R. 2188 and S. 1214 provide key 
support.
    As we consider the immense challenges that are posed by 
human driven changes in the climate system and other complex 
challenges like non-native species invasion, it is increasingly 
apparent that we have to envision and design conservation 
strategies across very large geographies. Successes in nutria 
control, multinational species conservation, bird joint 
ventures, and fish habitat partnerships are important, but they 
are not sufficient.
    Therefore, the Service is working with other Interior 
Department bureaus, with our State partners and other 
conservation partners on a new generation of science-driven 
landscape conservation cooperatives, or LCCs. These LCCs will 
house partner-based scientific and technical capacities to 
support landscape scale conservation through strengthened 
mechanisms like NAWCA, the joint ventures, and NFHAB 
partnerships.
    In fiscal year 2010, Congress provided us with $20 million 
to begin building this capacity and $5 million in support for 
the USGS partner efforts. In concert with these new authorities 
that you and the subcommittee are considering today, this 
presents us with the opportunity to build capacities that will 
allow us to design and achieve a 21st century conservation 
agenda addressing great challenges like changing climate.
    Chairman Cardin and members of the subcommittee, thank you 
for the chance to be here today, and again most importantly, 
thank you for your leadership on these key issues.
    [The prepared statement of Mr. Ashe follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Senator Cardin. Well, no, I thank you for what you are 
doing. We appreciate very much the strength that you bring to 
this effort, and we look forward to working with you.
    Let me just underscore the points that you made. There are 
nine bills on the hearing schedule today. You are supporting 
without qualification seven of those nine, if I understand 
correctly.
    Mr. Ashe. That is correct.
    Senator Cardin. And the National Fish Habitat Conservation 
Act, S. 1214, your concerns you are characterizing as basically 
technical and clarifying?
    Mr. Ashe. Right. We have a few minor concerns. Again, these 
came up during the clearance process of our testimony. We made 
the commitment to OMB that we would work with you on those 
concerns. There were some concerns about insurance balance 
representation and succession on the Fish Habitat Board, 
clarifying that the Land and Water Act acquisition authorities 
in the bill are going to use and build upon existing 
authorities, or that new authorities are more clearly spelled 
out. And then more precisely conditioning the Secretary's 
authority to waive the match requirement.
    So I would characterize them as just minor and clarifying 
changes.
    Senator Cardin. Would you please try to get those to us as 
quickly as possible? And particularly make sure that copies are 
made available to the bill sponsors so that we can try to 
resolve that as quickly as possible.
    Mr. Ashe. We will do that.
    Senator Cardin. I appreciate that.
    Now, in regards to the S. 373, a bill to amend title 18, 
United States Code, to include constrictor snakes, if I 
understand what you are saying is that you are recommending 
that we amend this to basically cover nine species of snakes, 
that you have specifically nine that you want covered.
    Mr. Ashe. Correct. This is the same position as we 
presented in the House, before the Judiciary Committee in the 
House. There were nine species of snakes, of Burmese python, 
North African python, reticulated python, southern African 
python, boa constrictor, yellow anaconda, DeSchauensee's 
anaconda, green anaconda, and Beni anaconda, that were all 
identified as having medium to high risk in the risk assessment 
that was performed for us and the Park Service by the U.S. 
Geological Survey.
    It is our recommendation that we include all nine of those 
snakes in the Lacey Act.
    Senator Cardin. So this is consistent with the USGS report?
    Mr. Ashe. Completely consistent. Yes, sir.
    Senator Cardin. And the impact on the bill, as I understand 
it, is to narrow its application in many respects, but to add a 
couple of additional species that were not included in the 
original bill. Is that correct?
    Mr. Ashe. Correct.
    Senator Cardin. Have you reviewed that with Senator Nelson, 
the changes? If you haven't, I would appreciate again if you 
would make sure that you have reviewed this with Senator 
Nelson. I think we have your specific comments so we are 
prepared to move forward. I will also alert him to contact you 
if there is additional concerns in that regard.
    Mr. Ashe. We will contact Senator Nelson's office directly, 
and I would say in the House, the House bill sponsor, 
Congressman Meek, was very happy with our testimony. I would 
expect Senator Nelson would be as well.
    Senator Cardin. Well, Senator Nelson--we had a hearing once 
before, and he brought us the skin of the snake, the python, 
the Burmese python, and that got our attention.
    Mr. Ashe. They are pretty intimidating.
    Senator Cardin. Right.
    He also got my attention when he told me that the weather 
changes in the Chesapeake Region are conducive for pythons 
surviving, so that got my attention also.
    Mr. Ashe. Yes, you definitely don't want them up here.
    Senator Cardin. Understand.
    Many of the bills here are dealing with conservation 
efforts, and you are supporting all those bills. I just make 
this an open invitation. If there are other ways that Congress 
can be helpful on conservation in giving you additional 
opportunities, I would just make that an open invitation to let 
us know. This committee is very interested in following what 
Senator Bond was saying and being a constructive player and 
preserving our natural habitat for our fishermen and our 
hunters and the recreational users. And I know these bills here 
are all being improved, but there may be some other efforts. 
Please let us know.
    Mr. Ashe. Thank you, Senator. I would just reiterate that 
the group of bills that you are considering today, particularly 
the amendments to the North American Wetlands Conservation Act, 
the Migratory Bird Joint Venture bill, the NFHA Partnership 
Act; those are really providing us with foundational elements 
of change.
    And we are working with our State partners and our 
conservation community partners to really build capacity that 
is going to allow us to deal with really some of the biggest 
challenges that we have facing us. And so I think the things 
that you are considering today are going to be just essential 
to us as we move forward.
    Senator Cardin. Well, thank you very much. Appreciate your 
testimony.
    Mr. Ashe. Thank you.
    Senator Cardin. We will now move to our panel. Mr. Edmond 
C. Mouton, who is the Biologist Program Manager for the 
Louisiana Department of Wildlife and Fisheries, where he has 
worked for 16 years. He is the highest level technical expert 
on fur and marsh management issues in Louisiana and serves as 
the Scientific and Technical Adviser to the Department's 
administrative staff.
    Eric C. Schwaab is the Deputy Secretary of the Maryland 
Department of Natural Resources. He joins us today on behalf of 
the Association of Fish and Wildlife Agencies. The Association 
is composed of public fish and wildlife agencies from across 
North America and is dedicated to promoting sound resource 
management and strengthening of the Federal, State and private 
cooperation in protecting and managing fish and wildlife in 
their habitats.
    And Robert Bendick is the Director of U.S. Government 
Relations and the Acting Director of the External Affairs of 
The Nature Conservancy. The Conservancy is the leading advocacy 
organization for protection and conservation of natural 
wildlife and habitat and control of invasive species. It is 
well respected for its collaborative science-based approach.
    So on this panel we have two governmental and one of our 
most active private sector players.
    And then we are last joined by Gordon Robertson, who is 
Vice President for Government Affairs from the American 
Sportfishing Association. The Association represents the 
sportfishing industry and promotes the economic and 
conservation values of sportfishing in America. Mr. Robertson 
has spent over 23 years working on important fish and wildlife 
management issues at the national level and in West Virginia 
and is well known to our committee.
    We welcome all four of you.
    Mr. Mouton, we will start with you.

STATEMENT OF EDMOND C. MOUTON, JR., BIOLOGIST PROGRAM MANAGER, 
COASTAL AND NONGAME RESOURCES, LOUISIANA DEPARTMENT OF WILDLIFE 
                         AND FISHERIES

    Mr. Mouton. Thank you, Chairman Cardin.
    One thing I would like to mention is part of my 
responsibilities is to implement and manage and monitor the 
coast-wide Nutria Control Program in the State of Louisiana.
    I greatly appreciate the opportunity to present testimony 
in support of S. 1519, the Nutria Eradication and Control Act 
of 2009, and S. 1965, the Feral Swine Eradication and Control 
Pilot Program Act of 2009. Enactment of this legislation will 
be central to the Department's longstanding efforts to mitigate 
and restore damage to our precious wetlands by these invasive 
non-native species.
    We are very grateful to you and the sponsors of this 
legislation for keeping these issues and important programs on 
the forefront of the subcommittee's wildlife legislative 
agenda.
    I am also pleased to be here with my colleague from 
Maryland and defer to him on his views concerning the other 
bills being considered by the subcommittee.
    Louisiana and Maryland have worked very closely over the 
years on the nutria problem and other wildlife challenges 
facing our States, and we are pleased to do so again today. As 
most of you are aware, the Gulf Coast marshes of Louisiana are 
deteriorating at an alarming rate. Current estimates are that 
over 15,000 acres of Louisiana marsh are lost annually to 
coastal erosion and subsidence.
    The marsh loss is detrimental to the coastal fisheries 
industry, agriculture and all other renewable resources which 
are products of the surrounding estuaries and wetlands. These 
wetlands provide protection from storms and hurricanes for the 
residents of South Louisiana and are very important to the oil 
and gas industry infrastructure.
    One of the variables contributing to the deterioration of 
these wetlands has been the extensive habitat destruction 
resulting from nutria herbivory. Fortunately, the Coastwide 
Nutria Control Program, which is funded by the Coastal Wetlands 
Planning, Protection and Restoration Act, also known as CWPPRA, 
has been very successful over the past 7 years in controlling 
this problem.
    During this time, Louisiana trappers have harvested over 2 
million nutria, thus reducing damage to coastal wetlands from 
over 90,000 acres coast-wide to approximately 20,000 acres 
coast-wide presently. This equates to a very impressive 78 
percent reduction in nutria-related marsh deterioration.
    Other projects included multiple capture trap studies, 
nutria lure research, nutria lure and trap trails, zinc 
phosphide studies on nutria and alligators. These projects were 
conducted to improve trapping efficiency and catch effort for 
the trappers. These efforts have addressed the goals of the 
Nutria Eradication and Control Act of 2003 in reducing nutria 
populations and restoring wetlands damaged by nutria. The 
continuance of this program by reauthorizing the Nutria 
Eradication and Control Act would provide funding for this very 
positive and successful program in coastal Louisiana and allow 
the Department to further pursue these problems.
    Unfortunately, much of this recovered acreage is now 
experiencing severe negative impacts due to the activities of 
another non-native invasive species, feral swine. Populations 
of feral swine are increasing in density and are dispersing 
throughout coastal Louisiana. Data from coastal aerial surveys 
have documented an increase in feral swine populations, 
especially throughout the deltaic plain of Southeastern 
Louisiana. This is especially significant because it is an area 
of the Louisiana coast that is experiencing the highest rates 
of coastal erosion.
    The Department is concerned that these animals are 
following the same pattern as nutria in their population growth 
and in their consequent impacts to our coastal marsh recovery 
efforts. The Feral Swine Eradication and Control Pilot Program 
Act of 2009 would provide funding for Louisiana to develop 
measures to eradicate or control feral swine and to assess and 
restore wetlands damaged by feral swine.
    Knowledge and expertise developed in existing nutria 
control programs would be utilized to carry out the activities 
of this beneficial program to Louisiana and allow the 
Department to address this problem.
    Our proposed solution is to determine feral swine 
population densities and distributions, identify habitats 
impacted, and develop techniques to control feral swine and 
coastal marsh habitats. We would use the same successful 
methodologies developed for the Coastwide Nutria Control 
Program. Methodologies would include coast-wide aerial surveys 
and development of techniques for on the ground and serial 
control of this invasive species.
    Thank you again, Mr. Chairman, for this opportunity to 
highlight challenges to Louisiana's efforts to mitigate and 
restore wetland damage and to register our support for this 
important legislation.
    Also on behalf of the Department and the State of 
Louisiana, we appreciate and concur on the supportive and 
positive remarks received on feral swine and nutria from Dan 
Ashe and the Administration, and we look forward to work with 
those Federal agencies.
    We look forward to working with the subcommittee, and I 
would be pleased to answer any question you have.
    Thank you.
    [The prepared statement of Mr. Mouton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Senator Cardin. Mr. Mouton, thank you very much for your 
testimony. I appreciate your work.
    Mr. Mouton. Yes, sir. Thank you.
    Senator Cardin. Mr. Schwaab.

   STATEMENT OF ERIC C. SCHWAAB, DEPUTY SECRETARY, MARYLAND 
 DEPARTMENT OF NATURAL RESOURCES, ON BEHALF OF THE ASSOCIATION 
                 OF FISH AND WILDLIFE AGENCIES

    Mr. Schwaab. Thank you, Mr. Chairman, for the opportunity 
to testify before you today on behalf of both the Maryland 
Department of Natural Resources and the Association of Fish and 
Wildlife Agencies which represents all 50 States.
    I would like to focus my remarks--while I have provided 
testimony in written form on seven bills, I would like to focus 
my remarks on three of those bills here today: the National 
Fish Habitat Conservation Act, the Joint Ventures for Birds 
Conservation Act, and the Nutria Eradication and Control Act. 
All three share significant characteristics: a habitat-based 
approach to pressing conservation concerns, a framework to 
bring together partners to coordinate efforts, and a science-
based approach to setting priorities and measuring results.
    We are particularly pleased to offer strong support for the 
National Fish Habitat Conservation Act. The Act establishes a 
coordination framework, a process for action, and authorizes 
funding to help implement the National Habitat Action Plan.
    Mr. Chairman, we have worked for decades in this country to 
reverse overfishing and deal with other challenging issues 
related to fishing removals. This work has required substantial 
effort and coordination across a number of Federal agencies, 
State and tribal partners, industry and other private sector 
partners. And it has yielded success.
    But controlling overfishing alone will not ensure a healthy 
and productive future for our fisheries. Without large scale 
coordinated and strategic efforts to protect fish habitat, the 
hard work and expended resources and sacrifice by fishermen and 
fishing communities to rebuild fish stocks could be undermined.
    In 2004, the Association partnered with Federal agencies, 
tribal interests and others to develop a national scale fish 
habitat conservation model. That resulted in the National Fish 
Habitat Action Plan, which has already instigated significant 
development of fish habitat partnerships across the country.
    This partnership model brings strategic perspectives and 
provides a framework for coordinated efforts. It creates 
opportunity for agencies and organizations to come together 
around landscape scale habitat concerns, prioritize actions, 
and develop work toward common goals and objectives.
    Past aquatic habitat conservation approaches and models, 
often regulatory in nature and fragmented, have simply not 
stemmed the tide. A new model is needed, one that is grounded 
in science, coordinated partnerships, and priority habitat 
improvement projects of the scale that is effective. That is 
this model provided for and supported by the Fish Habitat 
Conservation Act.
    Regarding the Joint Venture for Bird Conservation Act, as a 
forerunner to the National Fish Habitat Action Plan, the North 
American Waterfowl Management Plan was the first landscape 
scale effort to address key habitat concerns of migratory 
birds. The plan became the foundation for a series of joint 
ventures that developed under broad authorities afforded the 
States and the U.S. Fish and Wildlife Service.
    Like many fish species, migratory bird patterns of birds 
dictate a landscape scale conservation effort. They dictate 
partnership-based action and coming together around common 
challenges.
    Maryland is, by the way, a member of the Atlantic Coast 
Joint Venture and has benefited significantly from focused 
conservation of habitat work along the Atlantic flyway that has 
resulted through that effort. We strongly urge favorable action 
on this opportunity to lend greater structure and statutory 
support to these strategically important efforts.
    Mr. Chairman, we particularly appreciate your personal 
attention to the Nutria Eradication and Control Act. We 
strongly support S. 1519 and the continued authorization of 
this vital program that is instrumental in managing this 
destructive non-native species.
    Nutria are prolific breeders and voracious feeders that 
out-compete native species and cause permanent loss of wetlands 
by destroying the root systems of wetland plants. Marsh 
destruction from nutria was so significant in the Chesapeake 
Bay estuary that nutria control was made an integral part of 
the Chesapeake Bay Agreement, the interstate blueprint for 
Chesapeake Bay restoration.
    To date, through past efforts and support of Congress, the 
Maryland Nutria Partnership has removed 13,000 nutria from 
150,000 acres on the Eastern Shore of the Chesapeake Bay. This 
nutria-free zone was the epicenter of the Maryland population 
and had the highest nutria population density. The Partnership 
aims for a nutria-free DelMarVa Peninsula by 2014. Studies 
shown that marshes, once nutria removed, recover very quickly.
    It is critical that all nutria be eradicated from the 
region. Without total removal, the nutria population will 
recover and re-infest, and we will lose the progress that we 
have made.
    Mr. Chairman, we urge favorable action to ensure 
continuation of this important project and completion of the 
task.
    Thank you for the opportunity, and I would be happy to 
answer any questions.
    [The prepared statement of Mr. Schwaab follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Cardin. Well, Mr. Schwaab, thank you for your 
testimony. I am particularly proud of the work that has been 
done in Maryland and I congratulate you on that.
    Mr. Bendick.

   STATEMENT OF ROBERT L. BENDICK, DIRECTOR, U.S. GOVERNMENT 
               RELATIONS, THE NATURE CONSERVANCY

    Mr. Bendick. Mr. Chairman, I, too, appreciate the 
opportunity to testify here today on behalf of The Nature 
Conservancy. We thank you for your terrific leadership on 
conservation issues.
    The Nature Conservancy is an international nonprofit 
conservation organization with a mission to protect the 
diversity of fish and wildlife habitat on Earth. We have 
programs and site-based projects in all 50 States and in 35 
other countries. And we own and maintain the largest system of 
private nature preserves in the world.
    This extensive experience in the field informs our 
legislative positions and is relevant to the bills being 
considered at this hearing.
    First, we strongly support S. 373, 1519, 1421, and 1965 to 
control and eradicate exotic invasive wildlife species. Studies 
have shown that invasive species are threatening the survival 
of almost half of the 1,800 federally listed threatened and 
endangered species. We have done a survey, and invasive species 
are a significant threat to 94 percent of our own nature 
preserves. I will highlight just two of the specific positions 
discussed in my written testimony.
    If passed, S. 373 would immediately place all species of 
the python genus on the Federal Injurious Species List under 
the Lacey Act. While we do not feel that there is the body of 
scientific evidence to support listing of the entire python 
genus, we do agree with the U.S. Fish and Wildlife Service that 
this bill be amended to include all nine large constrictor 
species assessed by the recent USGS report on this subject.
    Two of these species, the Burmese and northern African 
pythons, are already present in very large numbers, some say 
100,000 individuals, on conserved lands in Florida, and are 
predicted to spread much farther north.
    And as former Director of the Conservancy's southern U.S. 
region, I have seen first-hand the damage feral hogs cause to 
natural areas. We have faced similar problems on the Channel 
Islands of California and in Hawaii. We are very pleased to see 
legislation that provides critical cost share funds to the 
State of Louisiana to study the extent of hog damage to 
wetlands and to develop methods to eradicate feral swine.
    Second, we urge the subcommittee to enact authorizing 
legislation for the National Fish Habitat Conservation Act and 
to codify procedures for the successful U.S. Fish and Wildlife 
Service's Joint Ventures for Bird Habitat Conservation. Within 
40 percent of all North American freshwater fish species are 
vulnerable to extinction, and many other marine and freshwater 
species are also threatened. Habitat loss and degradation is 
one of the primary causes of this decline.
    A National Fish Habitat Conservation Act would provide a 
sound framework for implementation of the National Fish Habitat 
Action Plan, a collaborative, multi-stakeholder effort to 
conserve and restore fish and aquatic organism habitat across 
the U.S.
    A good example of the potential of this legislation is the 
Southern Aquatic Resource Partnership in which I have 
participated. It brings together 14 States to accomplish 
projects like the restoration of stream side habitat on the 
biologically diverse Duck River in Central Tennessee.
    For birds, the Joint Ventures science-based partnership-
driven approach is an excellent model for the collaborative 
efforts necessary to sustain healthy and productive landscapes 
across America. The Nature Conservancy is engaged in many of 
the 19 JV partnerships across the U.S., and we strongly support 
H.R. 2188 to formalize the coordination and financing of 
Federal, State, nongovernmental organizations, tribes and 
landowners to conserve bird habitat, but with two amendments 
that are spelled out in my written testimony.
    Finally, we also support an amendment of the North American 
Wetlands Conservation Act to authorize the use of Canadian 
funds as matching funds. Currently, the provision that all 
NAWCA match come from U.S. sources means that a large amount of 
Canadian match generated by conservation partners is 
effectively left on the table and does not count.
    Given that NAWCA projects often attract two to three times 
the amount of Federal dollars invested, this legislation can 
only help improve our ability to conserve wetlands in North 
America.
    NAWCA, the Bird Joint Ventures and the fish habitat 
legislation all bring together diverse interests, including 
landowners, and the different levels of government in just the 
kind of cooperative, voluntary, constructive and practical 
efforts needed to conserve America's natural systems for all 
their benefits.
    Thanks again for allowing me to testify here today.
    [The prepared statement of Mr. Bendick follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Cardin. Thank you very much for your testimony.
    Mr. Robertson.

    STATEMENT OF GORDON ROBERTSON, VICE PRESIDENT, AMERICAN 
                    SPORTFISHING ASSOCIATION

    Mr. Robertson. Thank you, Mr. Chairman, for the opportunity 
to speak today on the National Fish Habitat Conservation Act, 
Senate 1214.
    My name is Gordon Robertson, and I am Vice President of the 
American Sportfishing Association. The ASA is the sportfishing 
industry's trade association, committed to representing the 
interests of the sportfishing and boating industries.
    Now, you may ask what our interests are in the National 
Fish Habitat Conservation Act. Well, they are two-fold. First, 
for a healthy business climate, our members depend on abundant 
fish populations accessible to the public for recreational 
fishing.
    And second, our manufacturing members since 1950 have paid 
a 10 percent Federal manufacturers excise tax each quarter on 
the products they sell.
    Along with the import duties our members pay and that part 
of the Federal fuel tax attributable to motor boat use, that 
amounts to approximately $8 billion over the last 60 years for 
fish conservation and angler and boater access. These moneys 
are distributed to each State based on its licensed angle 
population and size.
    And along with fishing license fees are the backbone of 
fisheries conservation in this country, paying salaries, 
providing the necessary equipment, surveys, research and 
general infrastructure for a solid fish management program in 
each State.
    It also provides some moneys for fish habitat work but 
falls far short of identified needs.
    So we strongly support S. 1214 and view this Act as 
complementary to the existing moneys that our industry and 
anglers pay.
    ASA has been involved in discussions about this legislation 
since they began in 2000. We have worked hard to assure that it 
represents the needs of the fishery resources in this Nation 
and the desires of the industry and the recreational angler. We 
believe it contains the necessary components for an efficient 
national fish habitat effort.
    ASA believes it is necessary to have a robust National Fish 
Habitat Conservation Act that identifies habitat needs and 
addresses them in a structured fashion that functions from the 
bottom up, is State-centric, and maximizes the available 
dollars, labor and expertise of a wide variety of partners. All 
those points are embodied in S. 1214.
    Most don't think of recreational fishing as an industry, 
but it most surely is. Recreational fishing supports over a 
million jobs in this country, provides an annual economic 
impact of $125 billion, $45 billion in annual direct 
expenditures and results in over $16 billion in tax revenues to 
Federal, State and local governments.
    Our members continue to support the 150 million or so 
dollars each year in excise taxes and import duties they pay 
because they fundamentally believe it is a good business 
investment for them and for the Nation. Recreational fishing 
creates jobs and a healthy economy. For many waterside 
communities, it is the economy, and improving fish habitat is 
an important part of the national economics and job equation.
    Mr. Chairman and members of the subcommittee, I also want 
to express our support for S. 1421, a measure to ban the 
importation of Asian carp into the United States. We testified 
in support of a similar measure in the House of Representatives 
in November 2005 and continue to support such measures.
    ASA believes strongly in habitat restoration and supports 
H.R. 3433. The North American Wetlands Conservation Act is a 
success and the Act to which we and others in the recreational 
fishing community turned when seeking a successful model for 
the drafting of the National Fish Habitat Conservation Act.
    Thanks again, Mr. Chairman, and we urge this committee's 
passage of the National Fish Habitat Conservation Act.
    Mr. Chairman, thank you for your support and leadership of 
the National Fish Habitat Conservation Act bill, and I would be 
glad to answer any questions.
    [The prepared statement of Mr. Robertson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Senator Cardin. Well, let me thank all four of you for your 
testimony and for your support of the bills that are moving 
forward here.
    Let me first just try to get a little further clarification 
of the risk factors on these invasive species, whether we are 
dealing with the nutria, whether we are dealing with the feral 
swine. It is clear that they do spread diseases. They affect 
the native species that are there. They do property damage for 
the landowner, including crops. And they also affect wetlands.
    I think one thing that may not be known, I know this is 
very true in Louisiana and Maryland, and I would appreciate 
getting your further clarification on it, the loss of wetlands 
affects the entire ecology of that region. It is one of our 
major problems, at least in the State of Maryland, has been 
wetlands now. And Blackwater, in our State, where the nutrias 
are very prominent, we lost a lot of wetlands, thousands of 
acres of wetlands were lost.
    Can you just enumerate from Louisiana and Maryland's point 
of view what these loss of wetlands mean in regards to our 
efforts to try to deal with water quality or the environment?
    Mr. Mouton. Well, especially in Louisiana, the wetlands 
that are being lost have contributed to a downfall in the 
fisheries industry, causing problems with the oyster industry, 
and there are also water quality problems as well, as wetlands 
act as filters for water.
    And many other effects as in, I had mentioned before, a lot 
of the renewable resources that depend on wetlands and 
estuaries. And most of the wetlands that were lost, which don't 
include that 100,000 number initially, nor the 20,000 that we 
have now, is a large chunk of wetlands that actually did 
convert to open water and will not return as wetlands and will 
remain as open water.
    Senator Cardin. And in Maryland, what has been the impact 
of the loss of our wetlands?
    Mr. Schwaab. Yes, sir, thank you.
    They certainly provide the kind of nutrient cycling and 
filtering benefits that Mr. Mouton suggested. They also, by the 
way, and you are familiar with Blackwater, provide some of the 
finest habitat for a variety of species that we have throughout 
the Chesapeake Bay region.
    And also noteworthy, Mr. Chairman, is the resiliency that 
they provide against some storm events, something that in the 
lower Eastern Shore we are particularly vulnerable to. You 
know, wetlands offer the opportunity to mitigate storm surges 
and floodwater rises, and the kind of resiliency that is 
inherent in those wetland environments is important, 
particularly to us in Maryland as, you know, we face rising sea 
levels and land subsidence in that region.
    Senator Cardin. Whether it is Federal efforts on 
conservancy or whether it is dealing with invasive species, it 
is an effort to work with the private sector. We can't do this 
alone. I would value your observations, our two witnesses from 
the private sector as to how effective our efforts have been to 
work with private organizations in our mutual goal to enhance 
our environment.
    Mr. Bendick. Well, I think that is what is so terrific 
about the fish habitat legislation, the NAWCA, and the Joint 
Ventures is they really reach out to all segments of the 
community to create partnerships, including non-profits and 
landowners and businesses to develop a common plan for an 
ecological area and then to implement that plan.
    I think in our view the wave of the future is represented 
by these pieces of legislation. We think it is incredibly 
valuable to have the opportunity to participate with Government 
in setting plans and ideas and then carrying them out. And so 
it is very exciting to see that becoming a more prevalent way 
of the Federal Government doing its business.
    Senator Cardin. Mr. Robertson, in regards to your group's 
interest in protecting fish habitat and protecting recreational 
fishing, how effective has been the relationship between the 
Government policies and the private sector efforts?
    Mr. Robertson. They have been very effective. When we 
drafted this bill, we thought, OK, how do we get the biggest 
bang for the dollar? How do we get the biggest impact on the 
ground? And we worked hard to make this bill reflect a 
direction where groups on the ground, where private 
organizations, local governments, individuals work together to 
effect effective habitat changes for fisheries.
    So we thought it was very important that it be in that 
fashion, not a top-down Federal Government program saying this 
is the way you are going to do it, but a bottom-up situation 
where local communities, local organizations like Bass Anglers 
Sportsman Society, Trout Unlimited, and a host of others took 
interest and took the matter into their own hands and were 
really leading the way on it.
    So we think it is very important. We have a foundation at 
the American Sportfishing Association called the Fish America 
Foundation. It grants money from Interior and NOAA and from our 
own members' donations. And I think it is a rare situation when 
that doesn't get matched at least three times over. So it is 
extremely effective.
    Senator Cardin. Glad to hear that.
    Mr. Bendick, in your oral and written testimony, you talk 
about two suggestions on H.R. 2188. I just want to make sure I 
understand the two points that you are raising.
    The first appears like it could be handled through the 
regulatory process, not through legislation itself. I just want 
to get your observations on that.
    And the second is funding levels, which is something that I 
am always very sensitive about. You probably have my support, 
but that is not always an area that we have a lot of leeway 
here.
    Mr. Bendick. Yes, again, we think the joint ventures are 
extremely useful cooperative instruments. We would like to see 
a bit more money there. I think they are being used more 
frequently, and so increasing the appropriations would be money 
well spent because it leverages so much other money and so much 
other effort. So we strongly agree with that.
    And on the first point, I think it conceivably could be 
done through the regulatory process, but we think it could be 
incorporated in the legislation.
    Senator Cardin. I appreciate that.
    I will also make the observation this is a House bill which 
also complicates the funding level issues, but we will 
certainly take a look at that, and I am sure that we would want 
to get the most robust participation possible with the Joint 
Ventures, so I think we share your interest in that.
    Mr. Bendick. Thank you.
    Senator Cardin. Well, once again let me thank all of our 
witnesses for being here today, but more importantly, for what 
you do for your environment. You are making a huge difference. 
We can't do this alone. The government partners, at the 
Federal, State and local levels, along with the private sector 
are what we need in order to be able to deal with the dangers 
of invasive species and the conservation efforts.
    And we would hope that the legislation we are considering 
today will make these tools more effective so that we can get 
the job done together. And I can pledge to you that this 
committee is very interested in figuring out ways that we can 
even be more effective in carrying out our responsibilities for 
future generations.
    Thank you all very much, and with that, the subcommittee 
will stand adjourned.
    [Whereupon, at 2:50 p.m. the subcommittee was adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good afternoon. I would like to thank the subcommittee 
Chairman for holding this hearing. I welcome the opportunity to 
examine the merits of the bills before us today. I am, however, 
concerned about the troublesome precedents some of these bills 
would create.
    The four bills that will we examine today--the Asian Carp, 
S. 1421; Python, S. 373; Feral Swine, S. 1965; and Nutria 
Eradication, S. 1519--address the threat posed by particular 
invasive species to the environment. We must be cautious about 
new laws that interfere with the Fish and Wildlife Service's 
management practices, as they could impose changes to 
environmental laws with little or no input from other Federal 
agencies. As we chart a course of action to address harmful 
species, we must be careful to avoid subverting or overturning 
established processes within the Department of the Interior for 
determining the threat a particular species may have on the 
environment.
    Common sense reforms are needed to prevent the 
proliferation, importation or breeding of species that would be 
harmful to ecosystems, but I am cautious of the precedent of 
addressing these species outside normal agency channels. Any 
policy that Congress considers for invasive species should 
include a reasonable ``risk analysis'' process with input from 
States and industry. Unfortunately, some of the bills we are 
examining today take a different and less effective approach.
    With respect to the National Fish Habitat Conservation Act, 
S. 1214, I have serious concerns with the portions of the bill 
that give the Federal Government the ability to purchase water 
rights and property. I cannot support such an approach. This 
should be done through public-private partnerships. Such 
partnerships can leverage State and local resources as well as 
preserve private ownership, which together can help conserve 
more fish habitat. The bill in its current form allows for this 
but also gives the Federal Government the authority to work 
unilaterally--a provision I oppose. I look forward to working 
with my colleagues on both sides of the aisle to address my 
concerns.
    Finally, we will be looking at the Junior Duck Stamp 
Conservation and Design Program Reauthorization Act of 2009, 
H.R. 3537, and the Marine Turtle Conservation Reauthorization 
Act of 2009, H.R. 509. I strongly support the former program 
and was chair of this committee when we reauthorized it back in 
2006. I also helped create the Marine Turtle Conservation Act 
in 2004 with Senator Jeffords. I look forward to discussing 
both of these bills today but would like to highlight the 
successful approach of the turtle bill and other multinational 
species conservation programs. These programs are successful 
because they leverage significant non-Federal money and work 
with NGOs to maximize their benefits. For example, the turtle 
program leverages over a dollar in matching funds for every 
Federal dollar spent. We should refrain from giving the Federal 
Government the ability to purchase water rights and land as the 
Fish Habitat Conservation would allow. This should be done 
working with property owners--such as the Partnership for Fish 
and Wildlife Program.

                    Statement of Hon. Bill Nelson, 
                 U.S. Senator from the State of Florida

    Thank you, Chairman Cardin, Ranking Member Crapo, and 
members of the subcommittee for holding today's hearing on 
legislation addressing the topic of invasive species and the 
threat they pose to the environment.
    As a Senator from Florida, I have seen firsthand the 
impacts of invasive species like the Burmese python. These 
nonnative, giant constrictor snakes have overrun the Everglades 
and are reproducing at an alarming rate. Not only do these 
animals wreak havoc on the south Florida ecosystem, but they 
can be deadly.
    This summer, a 2-year-old girl was killed by a Burmese 
python while she slept in her crib. This tragic occurrence was 
unfortunately not an isolated event. In fact, I have included 
for the record a list of incidences involving giant constrictor 
snakes in the United States over the last several years. I 
filed a bill in February which amends the Lacey Act and 
declares pythons as injurious animals. This will halt the 
importation and interstate commerce of these deadly and 
invasive snakes.
    Since the subcommittee's hearing on invasive threats in 
July, the United States Geological Survey (USGS) released a 
risk assessment on nine giant constrictor snakes, including the 
Burmese python. The risk assessment shows that all nine of 
these species pose either a medium or a high threat of 
establishing a wild breeding population in the United States. 
Of the nine, three of those snakes are already breeding in 
south Florida: the boa constrictor, northern African rock 
python, and the Burmese python. The study also showed that this 
is not just a Florida problem. Many of those snakes have the 
potential to establish breeding populations in other areas of 
the country as well.
    Based on the USGS risk assessment and testimony from State 
and Federal resource managers, it is not enough to deal with 
only the Burmese python. There are already thousands of Burmese 
pythons breeding in the Everglades alone, and we must act 
swiftly before the next invasive species has a chance to gain a 
foothold in the United States. As such, I support two courses 
of action. First, list the nine species which have been found 
to pose a medium or high risk of establishment as injurious 
under the Lacey Act, halting their further import and 
interstate transport in this country. This includes the Indian/
Burmese python, northern African rock python, southern African 
rock python, reticulated python, boa constrictor, yellow 
anaconda, green anaconda, DeSchauensee's anaconda, and Beni 
anaconda. Listing these nine now deals with the animals that 
the United States Department of the Interior knows are a 
current threat.
    We also have to deal with the threat of species that have 
not yet been studied. The Lacey Act in its current application 
has not provided an efficient mechanism of preventing 
importation of invasive species due to the long process 
involved in listing animals as injurious. The listing process 
needs to be simplified. With increased global access, exotic 
``pets'' are available with the click of a button over the 
Internet without consideration of their impact on the 
environment or the threat they may pose to human safety.
    It is time to move forward and find a better way to screen 
animals for potential invasiveness. I intend to continue 
working with my fellow Members of Congress to find solutions 
that prevent invasions so that we do not have the next Burmese 
python destroying the ecosystems that we work so hard to 
protect.

    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
